Case: 17-41176

Document: 00514758762 Page: 1 Date Filed: 12/13/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
a
No. 17-41176

10

A True Copy
Certified order issued Dec 13, 2018

UNITED STATES OF AMERICA,

cd1 W.

UtMCA

Clerk, (JS. Court o14pea1s, Fifth Circuit

Plaintiff-Appellee
V.

FLAVIO TAMEZ,
Defendant-Appellant

Appeals from the United States District Court
for the Southern District of Texas

ORD ER:
Flav-io Tamez, federal prisoner # 14812-379, moves this court for a
certificate of appealability (COA). He wishes to appeal the district court's
denial of his 28 U.S.C.

ยง 2255 motion and his post judgment motion that

challenged his convictions of conspiracy to possess with intent to distribute
more than 1,000 kilograms of marijuana and aiding and abetting money
laundering.
According to Tamez, the district court erred in concluding, without
holding an evidentiary hearing, that his ยง 2255 motion is barred by the appeal
waiver provision of his plea agreement and that the law of the case doctrine
precluded review of the waiver's validity. Additionally, Tamez reurges his
claims that his trial attorneys rendered ineffective assistance by misadvising
him regarding his potential sentencing exposure and his appellate rights and

Case: 17-41176

Document: 00514758762

Page: 2 Date Filed: 12113/2018

No. 17-41176
by failing to ensure that he retained the right to appeal as discussed at his
sentencing hearing and further that his appellate attorney was ineffective in
failing to overcome the Government's motion to dismiss his direct appeal.
Finally, Tamez contends that the district court abused its discretion in denying
his postjudgment motion filed pursuant to Rules 52(b) and 59(e) of the Federal
Rules of Civil Procedure.
A COA may be issued "only if the applicant has made a substantial
showing of the denial of a constitutional right." 28 U.S.C. ยง 2253(c)(2). When
the district court has denied the claims on their merits, the movant must show
"that reasonable jurists would find the district court's assessment of the
constitutional claims debatable or wrong." Slack v. McDaniel, 529 U.S. 473,
484 (2000). When a district court has dismissed on procedural grounds, a
movant must show that "jurists of reason would find it debatable whether the
[motion] states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct
in its procedural ruling." Id.
Tamez has not made the required showing. Accordingly, his motion for
a COA is DENTED. His motions for leave to proceed in forma pauperis and for
the appointment of counsel also are DENIED.

Is/Edith H. Jones
EDITH H. JONES
UNITED STATES CIRCUIT JUDGE

74

TN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-41176

UNITED STATES OF AMERICA,
Plaintiff Appellee
-

V.,
FLAVIO TAMEZ,
Defendant Appellant
-

Appeals from the United States District
Court for the Southern District of Texas

ON MOTION FOR RECONSIDERATION AND REHEARING EN BANC.

Before JONES, ELROD and ENGELHARDT, Circuit Judges.
PER CURIAM:
The Motion for Reconsideration is DENIED and no member of this
panel nor judge in regular active service on the court having requested
that the court be polled on Rehearing En Bane, (FED. R. App. P. and 5TH
Cm. R. 35) the Petition for Rehearing En Banc is also DENIED.
( )

The Motion for Reconsideration is DENIED and the court having been
polled at the request of one of the members of the court and a majority
of the judges who are in regular active service and not disqualified not
having voted in favor, (FED. R. APP. P. and 5TH Cm. R. 35) the Petition
for Rehearing En Banc is also DENIED.

( )

A member of the court in active service having requested a poll on the
reconsideration of this cause en banc, and a majority of the judges in
active service and not disqualified not having voted in favor, Rehearing
En Banc is DENIED.

ENTERED FOR THE COURT:
UNITED STAThS CIRCUIT JUDGE

